                U.S. Department of Agriculture

                   Office of Inspector General
                             Southeast Region




     Audit Report

Food and Nutrition Service
 Vendor Sanction Policies




                       Report No. 27002-1-AT
                                   July 2004
                UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL
                                     Southeast Region - Audit
                                  401 West Peachtree Street, NW
                                      Atlanta, Georgia 30308
                              TEL: 404-730-3210 FAX: 404-730-3221


DATE:        July 15, 2004

REPLY TO
ATTN OF:     27002-1-At

SUBJECT:     Food and Nutrition Service Vendor Sanction Policies

TO:          Crayton J. Lankford
             Acting Regional Administrator
             Food and Nutrition Service, Southeast Region


This report presents the results of the subject audit. Your June 9, 2004, response to the
draft report is included as exhibit D with excerpts and the Office of Inspector General’s
(OIG) position incorporated into the relevant sections of the report.

We agree with your management decisions for six of the report’s seven
recommendations (Nos. 1, 2, 3, 4, 5, and 6.) Management decision has not been
reached for Recommendation No. 7. To achieve management decision on it, we need
additional action as outlined in the OIG Position section of the report. In accordance
with Departmental Regulation 1720-1, please furnish a reply within 60 days describing
the corrective action taken or planned and the timeframe for implementing the corrective
action on the recommendation.

Please note that the regulation requires a management decision to be reached on all
findings and recommendations within a maximum of 6 months from report issuance,
and final action to be taken within 1 year of each management decision.
Correspondence concerning final actions should be addressed to the Office of the Chief
Financial Officer.



/s/
RAYMOND G. POLAND
Regional Inspector General
Executive Summary
Food and Nutrition Service Vendor Sanction Policies (Audit Report No. 27002-1-AT)

Results in Brief                This report presents the results of our review of the Food and Nutrition
                                Service’s (FNS) Vendor Sanction Policies. The overall objective was to
                                evaluate FNS’ controls to ensure that retailers/vendors who are disqualified
                                from either the Food Stamp Program (FSP), or the Special Supplemental
                                Nutrition Program for Women, Infants, and Children’s Program (WIC)
                                receive a reciprocal disqualification. FNS’ rules require that when a
                                retailer/vendor is disqualified from one of its programs (FSP/WIC), the
                                retailer/vendor will be removed from the other program. Further, the
                                reciprocal disqualification shall be for the same length of time.

                                To assess whether reciprocal disqualifications were being imposed properly
                                in the Southeast Region, we reviewed activities of the two States with the
                                largest caseloads (Florida and Georgia). For the period October 1, 2000,
                                through July 31, 2003, FNS disqualified 459 retailers from the Florida and
                                Georgia FSP’s and the State agencies (SA) administering the WIC Program
                                disqualified 94 vendors from that program. The retailers/vendors were
                                disqualified for violations that included trafficking1 in FSP/WIC benefits,
                                selling ineligible items (i.e., tobacco products) in exchange for the benefits,
                                or overcharging for items.

                                Of the 459 retailers disqualified from the FSP, 46 retailers also participated in
                                the WIC Program. We found that 8 of the 46 retailers (17.4 percent) that
                                FNS disqualified for violating FSP regulations were not referred to the
                                respective WIC SA for a reciprocal disqualification. The FNS Field Offices
                                (FO) did not have sufficient procedures to verify that retailers/vendors
                                disqualified from the FSP were referred and removed from the WIC Program.
                                As a result, the eight disqualified FSP retailers continued to participate in the
                                WIC Program. We estimate that they could potentially redeem $903,732 in
                                WIC benefits during the periods that they should have been disqualified.
                                (See exhibit B.)

                                We also found that the Georgia FNS FO improperly granted civil monetary
                                penalties (CMP) to 17 disqualified WIC vendors in lieu of a reciprocal
                                disqualification from the FSP. FNS’ rules allow CMP’s in lieu of
                                disqualification from the FSP when the agency documents that the removal of
                                the retailer will cause a hardship, not just an inconvenience, to FSP
                                recipients. The Georgia FO did not perform the required reviews to
                                determine if the removal of the 17 vendors from the FSP would cause a
                                hardship to FSP recipients. Our review questioned the need for the hardship
                                exemptions. In addition, 8 of the 17 retailers were granted the CMP despite

1
    Trafficking is where the retailer/vendor illegally pays the FSP/WIC recipient cash at a discount from the face value of
    FSP/WIC benefits.
USDA/OIG-A/27002-1-AT                                                                                              Page i
                   being on FNS’ Watch List of suspected program violators.                The
                   17 disqualified WIC vendors received CMP’s totaling $148,974. Assessment
                   of the CMP’s in lieu of disqualification allowed these stores to continue to
                   participate in the FSP. We estimate that they could potentially redeem
                   $4.2 million in FSP benefits during the periods that they should have been
                   disqualified. (See exhibit C.)

Recommendations
In Brief           We recommend that the FNS Regional Office (1) refer the eight disqualified
                   retailers to the WIC SA’s for reciprocal disqualifications, (2) require that all
                   FO’s maintain a centralized list of disqualified retailers and to periodically
                   reconcile the list with the SA’s list of WIC disqualified vendors, (3) review
                   the referral process of the FO’s serving the other six States in the region to
                   determine that they have the necessary controls to ensure timely removal of
                   disqualified retailers/vendors, (4) instruct the Georgia FO to verify the need
                   for hardship exemptions prior to granting CMP’s in lieu of disqualifications,
                   and (5) review the procedures of the FO’s serving the other six States in the
                   region to ensure that they are properly verifying that hardship exists before
                   granting CMP’s in lieu of disqualifications.

Agency Response    In its June 9, 2004, response, to the draft report (see exhibit D), the FNS
                   Regional office agreed with six of the reports’ seven recommendations and
                   outlined action taken or planned to implement them. The agency disagreed
                   with the remaining recommendation citing restrictions in the Food Stamp Act
                   as a barrier to implementation.

OIG Position       We agree with the agency’s management decisions on the six
                   recommendations to which it agreed. For the remaining recommendation, we
                   will work with the agency on acceptable alternative solutions.
.




USDA/OIG-A/27002-1-AT                                                                      Page ii
Abbreviations Used in this Report

AUSA
  Assistant U.S. Attorney......................................................................................................................... 5
CMP
  Civil Monetary Penalties....................................................................................................................... 9
EBT
  Electronic Benefits Transfer ................................................................................................................. 1
FNS
  Food and Nutrition Service................................................................................................................... 1
FO
  Field Office ........................................................................................................................................... 1
FSP
  Food Stamp Program ............................................................................................................................ 1
FY
  Fiscal Year ............................................................................................................................................ 2
OIC
  Officer in Charge ................................................................................................................................ 11
OIG
  Office of Inspector General .................................................................................................................. 2
RO
  Regional Office..................................................................................................................................... 2
SA
  State agency .......................................................................................................................................... 1
WIC
  Special Supplemental Nutrition Program for Women, Infants, and Children ...................................... 1




USDA/OIG-A/27002-1-AT                                                                                                                           Page iii
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in this Report .......................................................................................................iii

Background and Objectives ................................................................................................................... 1
Findings and Recommendations............................................................................................................ 4

    Section 1. Reciprocal Disqualification............................................................................................. 4

        Finding 1             Retailers Disqualified From the FSP Were Not Referred to the WIC SA for
                              Reciprocal Disqualification..................................................................................... 4
                                  Recommendation No. 1.................................................................................... 6
                                  Recommendation No. 2.................................................................................... 7
                                  Recommendation No. 3.................................................................................... 7

    Section 2. Questionable Civil Monetary Penalties Granted .......................................................... 9

        Finding 2             Hardship Civil Monetary Penalties Were Granted in Lieu of
                              Disqualifications Without Proper Review............................................................... 9
                                  Recommendation No. 4.................................................................................. 11
                                  Recommendation No. 5.................................................................................. 11
                                  Recommendation No. 6.................................................................................. 12
                                  Recommendation No. 7.................................................................................. 12
Scope and Methodology........................................................................................................................ 14
Exhibit A – Summary of Monetary Results ....................................................................................... 15
Exhibit B – Disqualified Food Stamp Program Retailers Redeeming WIC Program
            Benefits ............................................................................................................................. 16
Exhibit C – Disqualified WIC Vendors Improperly Assessed CMP’s............................................. 17
Exhibit D – Agency Response .............................................................................................................. 18




USDA/OIG-A/27002-1-AT                                                                                                                     Page iv
Background and Objectives
Background                      The Food Stamp Program (FSP) serves as the first line of defense against
                                hunger by enabling low-income families to purchase nutritious foods. The
                                Special Supplemental Nutrition Program for Women, Infants, and Children
                                (WIC) safeguards the health of low-income women, infants, and children up
                                to the age of five, who are at nutritional risk, by providing more nutritious
                                foods to supplement diets, information on healthy eating, and referrals to
                                health care.

                                Food Stamp Program - The FSP is administered through State and local
                                service agencies that certify applicant households for food stamp benefits.
                                The recipient household uses an electronic benefits transfer (EBT) card to
                                redeem FSP benefits at the Food and Nutrition Service’s (FNS) authorized
                                retailers2. FNS’ field offices (FO), generally located in each State, authorize
                                retailers to redeem recipients’ FSP benefits. In addition, the FO’s are
                                responsible for monitoring the retailers, imposing disqualifications on
                                retailers found violating program rules, and ensuring vendors disqualified
                                from the WIC Program do not continue to participate in the FSP.

                                To be authorized to redeem FSP benefits, a retailer must sell a variety of
                                qualifying staple food items and the food sales must exceed 50 percent of its
                                total gross sales. Each retailer has a point-of-sale terminal to process FSP
                                transactions when recipients use their EBT card to purchase eligible food
                                items. The recipient’s FSP benefit account is debited for the sale, and the
                                retailer’s account is credited for the sale. At the end of each day, the
                                retailer’s transactions are totaled and funds are transferred from the U.S.
                                Treasury to the retailer’s bank account.

                                Special Supplemental Nutrition Program for Women, Infants, and
                                Children - The WIC Program is administered through State and local
                                agencies that certify applicant households for WIC benefits. WIC households
                                receive vouchers redeemable for specified food items at participating
                                vendors. WIC vendors generally also participate in the FSP. State agencies
                                (SA) are responsible for authorizing vendors to redeem household WIC
                                vouchers. In addition, the SA’s are responsible for monitoring the vendors,
                                imposing disqualifications on vendors found violating program rules, and
                                ensuring disqualified FSP retailers do not participate in the WIC Program.

                                A WIC vendor must agree to provide the participants with specified food
                                items listed on the vouchers at specified prices. The WIC vouchers are
                                redeemed through the commercial banking system.


2
    Retailer/Vendor/Store – These terms are interchangeable. A store authorized in FSP is called a retailer, while the same
    store authorized in the WIC Program is called a vendor.
USDA/OIG-A/27002-1-AT                                                                                              Page 1
                              In 1995, the Office of Inspector General (OIG) released a report3 entitled,
                              “Food Stamp Program and the Special Supplemental Food Program for
                              Women, Infants, and Children Disqualification of Vendors and Retailers.”
                              The report found that violation prone retailers/vendors were not always
                              removed from participation in all FNS programs for which they were
                              authorized. The audit disclosed control weakness over the (1) sanction
                              policies among the WIC SA’s, (2) investigation process by WIC SA’s,
                              (3) coordination between FNS FO’s and WIC SA’s for disqualification
                              activities, and (4) appeals process for disqualified WIC vendors.

                              In response to this audit, FNS issued regulations to set forth uniform penalties
                              for retailers/vendors who are guilty of FSP/WIC Program violations. The
                              regulations require that the disqualifying agency notify the other agency
                              within 15 days of the conclusion of all appeals, if the disqualification was
                              upheld. The regulations further provide that the reciprocal disqualification
                              shall be for the same length of time. A reciprocal disqualification is not
                              subject to administrative or judicial review.

                              The FNS Southeast Regional Office (RO), located in Atlanta, Georgia, is
                              responsible for the FSP and WIC Program activities in eight States. We
                              reviewed the FSP’s and WIC Program’s retailer/vendor monitoring activities
                              in the two States with the largest caseloads in the region, Florida and
                              Georgia. Table 1 presents the Florida and Georgia FSP and WIC Program
                              statistics for fiscal years (FY) 2001 through 2003.

          Table 1
                                                 WIC Program
                         Vendors              Participants             Food Dollars
             FY         FL    GA            FL          GA         FL               GA
            2001       2,117 1,866         316,758      226,365 $140,763,718     $86,730,395
            2002       2,207 1,875         340,954      237,124 $151,153,452     $93,248,489
            2003       2,121 1,752         354,495      246,027 $153,526,357     $97,763,411
                                          Food Stamp Program (FSP)
                         Retailers            Participants             Food Dollars
             FY         FL      GA          FL          GA         FL               GA
            2001       7,899 3,978         887,256      573,537 $770,726,070    $515,153,023
            2002       7,582 3,917         985,130      645,633 $878,454,831    $621,290,583
            2003       7,620 3,934       1,041,315      750,208 $987,926,276    $782,410,910




3
    September 1995, OIG report No. 27601-4-CH, “Food and Nutrition Service FSP and WIC - Disqualification of Vendors
    and Retailers.”
USDA/OIG-A/27002-1-AT                                                                                       Page 2
Objectives         The audit objectives were to determine if FNS’ internal controls were
                   adequate to ensure (1) retailer/vendors disqualified from one FNS program
                   were also disqualified in all other FNS programs, (2) retailer/vendors found
                   violating program rules were sanctioned, and (3) that internal controls were
                   adequate to monitor sanctioned retailer/vendors.




USDA/OIG-A/27002-1-AT                                                                   Page 3
Findings and Recommendations
Section 1. Reciprocal Disqualification



Finding 1                      Retailers Disqualified From the FSP Were Not Referred to the
                               WIC SA for Reciprocal Disqualification

                               Between October 1, 2000, and July 31, 2003, FNS disqualified 459 retailers
                               from participation in the FSP. Of the 459 retailers, 46 were also authorized
                               to participate in the WIC Program. We found that FNS did not refer 8 of the
                               46 disqualified FSP retailers (17.4 percent) to the WIC SA’s for reciprocal
                               disqualifications. The FNS FO’s did not have a system to verify that
                               disqualified FSP retailers were either referred or removed from the WIC
                               Program. As a result, the eight disqualified FSP retailers continued to
                               participate in the WIC Program. We estimate that they could potentially
                               redeem $903,732 in WIC benefits during the period that they should have
                               been disqualified (see exhibit B).

                               Regulations4 require that when a retailer/vendor is disqualified from one FNS
                               program (FSP/WIC), it will be removed from all FNS programs. Further, the
                               reciprocal disqualification shall be for the same length of time.

                               When a retailer/vendor is disqualified, the FNS FO or SA sends a letter to the
                               other agency informing them of the disqualification. The agency receiving
                               the notification must act on the information and remove the disqualified
                               retailer/vendor from their program. Our review found that the FNS FO’s had
                               no followup procedures to ensure that the referral was acted on. FNS FO’s
                               did not (1) maintain a list of disqualified retailers/vendors referred to the SA
                               and (2) perform periodic reconciliations of disqualified retailers/vendors to
                               ensure that they were not continuing to participate in FNS programs.

                               To identify retailers/vendors sanctioned, we requested the FNS FO’s and
                               WIC SA’s to generate a list of them for each program for the period
                               October 1, 2000, through July 31, 2003. The Florida and Georgia FNS FO’s
                               disqualified 459 retailers from the FSP and the SA’s disqualified 94 vendors
                               from the WIC Program (see table 2).

                               Table 2
                                                                     WIC                             FSP
                                        State                   Disqualifications               Disqualifications
                                       Florida                        23                              328
                                       Georgia                        71                              131
                                        Total                         94                              459


4
    7 Code of Federal Regulations (CFR) 278.6(e)(8), and 7 CFR 246.12(h)(xxv), dated January 2003.


USDA/OIG-A/27002-1-AT                                                                                         Page 4
                   We compared the lists to identify disqualified retailers/vendors who did not
                   appear on both lists. For those retailers/vendors that did not appear on both
                   lists, we determined if the retailer/vendor was authorized to participate in the
                   other FNS program. We found that (1) 46 of the 459 disqualified FSP
                   retailers were authorized to participate in the WIC Program and (2) FNS had
                   not referred 8 of the 46 retailers to the WIC Program for a reciprocal
                   disqualification. The eight retailers redeemed $483,154 in WIC benefits
                   between when they should have been disqualified and December 31, 2003.
                   Based on past redemptions, they could potentially redeem another
                   $420,578 during the remaining periods of disqualifications (see exhibit B).
                   We did not find any disqualified WIC vendors who were not removed, as
                   appropriate, from the FSP.

                   Georgia – Of the 131 Georgia retailers disqualified from the FSP between
                   October 1, 2000, and July 31, 2003, we determined that 33 were authorized to
                   participate in the WIC Program. We found that the Georgia FNS FO did not
                   refer 6 of the 33 disqualified retailers to the WIC SA. The FO staff could not
                   explain why the six disqualified retailers were not referred to the WIC SA
                   and agreed that a referral was required.

                   Of the six retailers, the two with the largest WIC redemptions appeared on
                   the WIC SA’s high-risk vendor list indicating abuse of that program also.
                   SA’s generate a quarterly list of vendors at high-risk of suspected program
                   abuse. Questionable redemption indicators include low variance in voucher
                   amounts, large percentage of vouchers redeemed at the same price, large
                   percentage of the area’s vouchers redeemed, and a large percentage of out of
                   area vouchers. For example:

                   •      Authorization No. 3353494 – The FNS Compliance Branch Office
                          investigated the retailer from March to May 2002, and found that the
                          store had exchanged cash for EBT benefits at discounted rates
                          (commonly referred to as trafficking). FNS referred the case to OIG
                          for investigation. The OIG investigators interviewed FSP recipients
                          who admitted selling their benefits to the retailer. OIG presented the
                          case to an Assistant U.S. Attorney (AUSA) for prosecution.
                          However, the AUSA declined the case because the monetary loss
                          involved did not meet the prosecutable guidelines.

                          In November 2002, FNS permanently disqualified the store from the
                          FSP for trafficking. FO staff could not explain why the retailer was
                          not referred to the WIC SA for a reciprocal disqualification. This
                          retailer appeared on the WIC SA’s high-risk vendor list since October
                          2000, which indicated potential abuse of the WIC Program.

                          The retailer redeemed $272,297 in WIC vouchers between the
                          November 2002 FSP disqualification and October 2003. Based on

USDA/OIG-A/27002-1-AT                                                                       Page 5
                          past redemptions, the vendor could have continued to redeem
                          $251,352 annually in WIC benefits.

                   •      Authorization No. 2857596 – The FNS Compliance Branch Office
                          investigated the store in September 2000 and found FSP recipients
                          who admitted selling their benefits to the retailer for cash. In
                          December 2000, FNS permanently disqualified the retailer from the
                          FSP for trafficking. In January 2001, FNS referred the case to the
                          WIC SA prior to a final determination on the retailer’s appeal. The
                          WIC SA disqualified the store, but had to reinstate it to the program
                          because the FSP appeals process was not concluded. On January 8,
                          2002, the FNS Administrative Review Board upheld the permanent
                          disqualification.

                          The FO staff could not explain why the WIC SA was not
                          subsequently notified of the appeal decision to permanently disqualify
                          the retailer. The retailer had appeared on the WIC SA’s high-risk
                          vendor list since January 2000 indicating a pattern of suspected abuse.
                          The retailer redeemed $122,635 between February 2002 and
                          October 2003. Based on past redemptions, the vendor could have
                          continued to redeem $63,984 annually in WIC benefits.

                   We referred the two vendors cited above to OIG Investigations. OIG
                   Investigations declined to investigate the two vendors allowing the WIC SA
                   to remove these vendors from the program in October 2003.

                   As a result of our review, the Georgia FNS FO and WIC SA met on
                   August 13, 2003, to establish referral procedures between the programs for
                   disqualified retailers/vendors. A contact person was established for each
                   agency to coordinate disqualification activities and exchange disqualification
                   information the first week of each month.

                   Florida – Of the 328 retailers disqualified from the Florida FSP, 13 were
                   authorized to participate in the WIC Program. The FNS FO did not refer 2 of
                   the 13 disqualified FSP retailers to the WIC SA for a reciprocal
                   disqualification. The staff could not provide an explanation of why the two
                   disqualified retailers were not referred to the WIC SA and agreed that a
                   referral was required.

Recommendation No. 1

                   Review the referral process between the FNS FO’s and WIC SA’s for the
                   other six States in the region and implement controls as appropriate to ensure
                   timely removal of disqualified retailers/vendors.




USDA/OIG-A/27002-1-AT                                                                     Page 6
                   Agency Response. In its June 9, 2004, response, FNS stated,

                          By July 15, 2004, the Regional Director of Field Operations
                          and the Regional WIC Director will review the reciprocal
                          referral process between the * * * [FO’s] and the * * * [SA’s]
                          and issue a report reflecting the findings of the review and
                          describing controls that will be implemented to ensure timely
                          removal of disqualified retailers/vendors. By August 15, 2004,
                          * * * [FO’s] and * * * [SA’s] will be notified of the controls
                          and advised to implement them immediately.

                   OIG Position. We agree with the management decision. For final action,
                   the FNS RO needs to provide OCFO with its report of findings and the
                   notification to FO’s and SA’s of controls to be implemented.

Recommendation No. 2

                   Require FO’s to maintain a centralized list of disqualified FSP retailers and
                   periodically reconcile the list with WIC disqualified vendors.

                   Agency Response.        In its June 9, 2004, response, FNS stated,

                          By July 15, 2004, the Regional Director of Field Operations
                          will send a reminder to all * * * [FO] staff that all Food
                          Stamp sanctions must be referred to the WIC * * * [SA], and
                          the referral entered in STARS through the CATS menu. On a
                          quarterly basis, the SERO Director of Field Operations will
                          retrieve a list from STARS of all * * * [FSP] sanctions
                          referred to each WIC * * * [SA] and provide the list to the
                          Regional WIC Director. The WIC Director will then share the
                          list with each WIC * * * [SA] and request that each agency
                          confirm that proper reciprocal action was taken on each case,
                          as appropriate. The first list will be provided to the Regional
                          WIC Director by August 1, 2004, covering the period April
                          through June 2004.

                   OIG Position. We agree with the management decision. For final action,
                   the FNS RO needs to provide OCFO with a copy of the reminder issued to
                   FO’s.

Recommendation No. 3

                   Require the Georgia and Florida FO’s to refer the eight retailers to the
                   respective WIC SA’s for disqualification.



USDA/OIG-A/27002-1-AT                                                                       Page 7
                   Agency Response. In its June 9, 2004, response, FNS stated,

                         All eight retailers have been referred to their respective * * *
                         [SA’s]. Following the completion of the audit report, the
                         Florida * * * [FO] located documentation to show that one of
                         the two stores the auditors found as not having been referred
                         to the State WIC office had indeed been referred. * * * FNS
                         requests that this recommendation be closed.

                   OIG Position. We agree with the management decision. For final action,
                   the FNS RO needs to provide OCFO with documentation that the seven cases
                   were referred to the respective SA’s.




USDA/OIG-A/27002-1-AT                                                                       Page 8
Section 2. Questionable Civil Monetary Penalties Granted



Finding 2                    Hardship Civil Monetary Penalties Were Granted in Lieu of
                             Disqualifications Without Proper Review

                             The Georgia FNS FO improperly granted 17 disqualified WIC vendors
                             hardship civil monetary penalties (CMP) in lieu of reciprocal
                             disqualifications from the FSP. The FO granted the CMP’s without
                             substantiating the vendors’ representations that disqualifications would cause
                             a hardship to FSP recipients residing in the area served by the stores. Our
                             review questioned the need for the hardship exemptions. Further, 8 of the
                             17 disqualified retailers were on FNS’ Watch List of violation prone vendors
                             when the CMP’s were granted. The 17 retailers received CMP’s totaling
                             $148,974 in lieu of disqualification. As a result, we estimate the 17 retailers
                             could potentially redeem about $4.2 million in FSP benefits during periods
                             when they should have been disqualified (see exhibit C).

                             FNS Regulations allow a CMP in lieu of disqualification from the FSP when
                             the store’s disqualification would cause hardship to FSP households because
                             there are no other authorized retailers in the area.5 The CMP was intended to
                             be used only in those situations where the retailer’s disqualification would
                             cause a hardship, not just an inconvenience, to FSP recipients6.

                             FNS Regulations established a series of steps that the FO must follow to
                             determine if a disqualified WIC vendor is eligible for a hardship CMP. The
                             FO must (1) identify comparable firms in the area selling a substantial variety
                             of staple foods at comparable prices, (2) determine if comparable stores are
                             accessible to recipients, and (3) verify if the store had previous FSP
                             violations7.

                             In Georgia, 17 of the 71 disqualified WIC vendors received CMP’s totaling
                             $148,974 in lieu of a 3-year disqualification from the FSP for overcharging
                             WIC customers. The FO did not perform the required review steps to
                             determine if a disqualification would cause a hardship to FSP recipients in
                             the area. The FO staff stated that they relied on representations made by the
                             disqualified WIC vendors and had not conducted a review to confirm the
                             vendors’ hardship claim. Our review questioned the need for the hardship
                             exemptions.



5
  7 CFR 278.6(f)(1).
6
  FNS Handbook 318, chapter 9, section 920.
7
  FNS Handbook, chapter 9, section 920(B).
USDA/OIG-A/27002-1-AT                                                                                Page 9
                   In addition, the Georgia FO did not review the Watch List of violation prone
                   FSP retailers before making a determination to grant a vendor a hardship
                   exemption. Eight of the 17 vendors were on FNS’ Watch List before the
                   CMP was granted and another one appeared on the list after it was granted
                   the CMP. The Watch List identifies retailers that are prone to FSP violations.
                   Each month the FO’s receive the Watch List. The list identifies retailers with
                   possible violations based on a number of risk rating criteria. The FO’s, FNS
                   Compliance Branch Offices, and law enforcement agencies use the Watch
                   List to target retailers for reviews. The FO staff stated that they had not
                   reviewed the Watch List prior to granting a CMP.

                   Paying the $148,974 in penalties allowed the 17 stores to (1) redeem
                   $1,860,289 in FSP benefits between when the disqualification should have
                   been imposed and February 13, 2004, and (2) based on past redemptions,
                   potentially redeem another $2,352,729 in FSP benefits over the remaining
                   portions of the 3-year disqualification periods. Examples follow.

                   •      Authorization No. 4015 – In July 2003, the WIC SA’s decision to
                          impose a 3-year disqualification against the vendor for a pattern of
                          overcharging WIC customers was upheld by the appeals branch. The
                          SA referred the store to FNS for disqualification. However, the FO
                          granted an $11,000 CMP without verifying the retailer’s
                          representation that disqualification would cause a hardship to FSP
                          recipients residing in the area. The retailer also appeared on the FNS
                          Watch List prior to granting the CMP.

                          Our review identified 26 authorized FSP retailers within 2 miles of
                          this disqualified retailer. The retailer redeemed $74,007 in food
                          stamp benefits between August 2003 and February 2004 (7 months).
                          Based on past redemptions, the retailer could redeem another
                          $306,588 in FSP benefits over the remaining 29 months it should
                          have been disqualified.

                   •      Authorization No. 4163 – In November 2002, the SA imposed a
                          3-year disqualification against the vendor for a pattern of
                          overcharging WIC customers. The retailer sent a letter to the FO
                          requesting a CMP in lieu of disqualification from the FSP. The letter
                          stated that the store was the only one in the area and disqualifying it
                          would cause a hardship to FSP recipients. In May 2003, the FO
                          granted an $11,000 CMP without verifying if the retailer’s
                          disqualification would cause a hardship to FSP’s recipients in the
                          area. The FO granted the CMP despite the retailer appearing on the
                          FNS Watch List since August 2002. Our review identified six
                          authorized retailers within two miles of this disqualified retailer.
                          Three of these six retailers were chain supermarkets.


USDA/OIG-A/27002-1-AT                                                                   Page 10
                          We determined that the retailer redeemed $775,716 in FSP benefits
                          during the 15-month period (December 1, 2002, through February 13,
                          2004). Based on past redemptions, the retailer could potentially
                          redeem another $1,085,994 over the remaining 21 months it should
                          have been disqualified.

Recommendation No. 4

                   Instruct the Georgia FO to verify that a hardship to FSP’s recipients exists
                   before granting a disqualified WIC vendor a CMP.

                   Agency Response.        In its June 9, 2004, response, FNS stated,

                          See attached memo to the Georgia Officer in Charge (OIC),
                          dated, May 4, 2004, instructing the OIC that all potential
                          disqualifications, including WIC disqualifications, be
                          evaluated for a CMP in accordance with the * * * [FSP]
                          regulations and policy guidance and to include documentation
                          in the file substantiating the * * * [FO] decision in each case.
                          FNS requests that this recommendation be closed.

                   OIG Position. We agree with the management decision. The notification
                   to the Georgia OIC is sufficient for final action.

Recommendation No. 5

                   Request the FNS Compliance Branch Office to give priority to investigating
                   the nine retailers who received CMP’s and who appear on the FNS Watch
                   List.

                   Agency Response.        In its June 9, 2004, response, FNS stated,

                          By June 30, 2004, the redemption patterns for each of the nine
                          retailers will be analyzed to determine if they should be
                          referred to the Retailer Investigation Branch (formerly the
                          Compliance Branch); or, if an EBT case should be
                          established.

                          It should be noted that when a store appears on the Watch
                          List, it simply means that given certain redemption patterns
                          and characteristics, there is a possibility that a store is
                          violating – it is not an exact predictor that violations are
                          actually occurring. In many Watch List cases, after analyzing
                          a store’s redemption patterns a decision is made to take no
                          further action as the redemption patterns can be explained or
                          justified.

USDA/OIG-A/27002-1-AT                                                                    Page 11
                   OIG Position. We agree with the management decision. For final action,
                   the FNS RO needs to provide OCFO with results of its analysis of the nine
                   retailers and copies of EBT case openings as appropriate.

Recommendation No. 6

                   Review the FO’s serving the other six States’ in the region to ensure that they
                   verify hardships to FSP’s recipients before granting a disqualified WIC
                   vendor a CMP.

                   Agency Response.         In its June 9, 2004, response, FNS stated,

                          Depending on the volume of CMP’s imposed by each * * *
                          [FO], by August 1, 2004, the Office of Field Operations will
                          review all hardship CMP’s granted over the past 12 months,
                          or a random sample of hardship CMP’s, from the other six
                          SERO * * * [FO’s]. If problems are noted, proper corrective
                          action will be taken.

                   OIG Position. We agree with the management decision. For final action,
                   the FNS RO needs to provide OCFO with results of the review of CMP’s
                   granted in the six FO’s and documentation of corrective actions taken as
                   appropriate.

Recommendation No. 7

                   Instruct FO’s to consider a retailers listing on the Watch List when
                   deliberating whether to grant a CMP in lieu of disqualification.

                   Agency Response.         In its June 9, 2004, response, FNS stated,

                          FNS does not have the statutory or regulatory authority to
                          implement this recommendation. The Food Stamp Act at
                          7 * * * [United States Code] 2021(a), and the regulations at
                          278.6(f)(1), set forth the specific criteria * * * [FO’s] must
                          consider in determining if a store qualifies for a hardship
                          CMP – the fact that a store appears on the Watch List is not
                          one of those criteria. Furthermore, the imposition of a
                          hardship CMP is viewed as an “equivalent” penalty to a
                          disqualification.

                          Based on the above information, FNS requests that
                          Recommendation No. 7 be eliminated from the final report.

                    OIG Position. The FNS RO response addressed the recommendation in
                   the discussion draft report to require CMP’s not be granted retailers

USDA/OIG-A/27002-1-AT                                                                    Page 12
                   appearing on the Watch List. Based on comments at the April 7, 2004, exit
                   conference, we revised the recommendation to consider a retailers’
                   appearance on the Watch List as a fact or when deliberating whether to grant
                   as a CMP. We believe factoring the Watch List listing into CMP
                   deliberations is prudent given that the retailer had been found to have
                   committed serious violations of the WIC Program with indicators that it was
                   also committing violations in the FSP.

                   To achieve a management decision, we need details and timeframes for
                   implementing the recommendation.




USDA/OIG-A/27002-1-AT                                                                  Page 13
Scope and Methodology
                   The review was performed at the FNS Southeast RO in Atlanta, Georgia;
                   FNS field offices and WIC SA’s in Tallahassee, Florida and Atlanta,
                   Georgia. Fieldwork was performed from July 7, 2003, through February 13,
                   2004. We reviewed FSP and WIC Program disqualifications in Florida and
                   Georgia from October 1, 2000, through July 31, 2003.

                   We selected Florida and Georgia for review because they were the two
                   largest FSP and WIC Program payment States in the Southeast FNS Region.
                   We identified a total of 459 retailers disqualified from the FSP and
                   94 vendors disqualified from the WIC Program for the 2 States. We assessed
                   FNS’ internal controls that require the referral of a disqualified
                   retailer/vendor to the other FNS program for a required reciprocal
                   disqualification.

                   To accomplish our audit objectives, we performed the following audit steps
                   and procedures.

                   •      Reviewed FNS Regulations and procedures for disqualification and
                          sanctions for violations on the FSP and WIC Programs.

                   •      Interviewed responsible FNS and WIC officials managing both FSP
                          and WIC Programs.

                   •      Reviewed FSP and WIC databases used to track and record
                          vendor/retailer activities.

                   •      Analyzed vendor/retailer records to ensure compliance with FNS’
                          reciprocal disqualifications regulations.

                   •      Reviewed FNS’ and WIC SA’s records to determine program
                          redemption and authorization history.

                   •      Identified authorized FSP retailers located in neighborhoods near
                          WIC Program disqualified stores.

                   The audit was performed in accordance with generally accepted government
                   auditing standards.




USDA/OIG-A/27002-1-AT                                                                Page 14
Exhibit A – Summary of Monetary Results
                                                                          Exhibit A – Page 1 of 1



      Finding
        No.                  Description            Amount           Category
                  WIC benefits redeemed by                     Questioned Costs,
                  vendors who should have been                 Recovery not
          1       disqualified.                      $483,154 Recommended
                  FSP benefits redeemed                        Questioned Costs,
                  by retailers receiving CMP’s in              Recovery not
          2       lieu of disqualification.         $1,860,289 Recommended

     Funds To Be Put To Better Use.




USDA/OIG-A/27002-1-AT                                                                  Page 15
Exhibit B                      – Disqualified Food Stamp Program Retailers Redeeming WIC
Program Benefits
                                                                                                          Exhibit B – Page 1 of 1




                                                                Amount of
        FSP                                                       WIC              DQ           Estimated               Total
    Authorization     Sanction                                   Vouchers         Months          Future              Potential
      Number            Date         Reason        Sanction     RedeemedA          Left        RedemptionsB          Redemptions
      1363905          Apr 03          1         1-Yr. DQ          $26,362           4               $13,180              $39,542
      4787102          Jan 03          1         3-Yr. DQ           12,105          25                27,500                39,605
      4623886          Apr 03          1         3-Yr. DQ           11,739          28                41,076                52,815
                                                                                     C
      2579472          Oct 00          2         Perm. DQ              248                                  0                  248
      2857596          Jan 02          2         Perm. DQ∝         122,635           B
                                                                                                      63,984              186,619
      3353494          Nov 02          2         Perm. DQ∝         272,297           B
                                                                                                     251,352              523,649
                                                                                     B
      3686809          Mar 02          2         Perm. DQ           31,881                            18,216                50,097
      3390543          May 02          1         3-Yr. DQ            5,887           17                 5,270               11,157
                                                 Total            $483,154                          $420,578             $903,732
∝
    Retailer on WIC SA High Risk Vendor List
A
  WIC redemptions beginning with the month after the FSP sanction through December 31, 2003.
B
  Average redemptions, during the disqualification period, times the months remaining in the disqualification period. For permanent
disqualified stores, the future estimate was limited to 1 year.
C
  Authorized but not redeeming WIC vouchers.

Sanction Reasons:
1 - Accepting FS benefits in exchange for ineligible items.
2 - Trafficking




USDA/OIG-A/27002-1-AT                                                                                                   Page 16
Exhibit C – Disqualified WIC Vendors Improperly Assessed CMP’s
                                                                                                                              Exhibit C – Page 1 of 1




    WIC                                            Amount of               DQ               Estimated                      Total        Appeared
    Auth.       Date of            CMP                FS                  Months              Future                     Potential       on the
     No.       Sanction           Amount           Redeemed 1              Left            Redemptions2                 Redemptions     Watch List

    3950      May 2003              $11,000               $40,549            27                    $121,635                 $162,184         No

    4010      Aug 2001                11,000              176,342             6                       35,268                 211,610        Yes ‡

    3398       Sep 2001                 4,608               24,341            7                         5,873                 30,214         No

    4284       Oct 2002               12,378                59,793           20                       74,740                 134,533        Yes †

    4119       Oct 2002                 3,132               16,420           20                       20,520                  36,940         No

    4198       Mar 2001               10,008              125,175             1                         3,576                128,751         No

    4488       Apr 2002               $9,159                56,847           12                       28,428                  85,275         No

    4046       Jul 2002                 7,709               42,645           17                       38,148                  80,793        Yes †

    4218       Mar 2003                 2,192                9,804           25                       22,275                  32,079         No

    2396       Jul 2002               11,000              139,559            17                      124,865                 264,424        Yes †

    4163      Nov 2002                11,000              775,716            21                   1,085,994                 1,861,710       Yes †

    4019       Dec 2002               11,000              135,890            22                      213,532                 349,422        Yes †

    2959      Nov 2002                  1,908                7,448           21                       10,437                  17,885        Yes †

    3646      Nov 2002                16,668                82,018           21                      114,828                 196,846        Yes †

    4015       Jul 2003               11,000                74,007           29                      306,588                 380,595        Yes †

    4575      Nov 2002                11,000                84,495           21                      118,293                 202,788         No

    4290     May 2003                 4,212                9,240             27                      27,729                    36,969        No
             Totals                $148,974           $1,860,289                                 $2,352,729                $4,213,018
1
  FSP redemptions, beginning with the month after the WIC sanction through February 13, 2004.
2
  Average redemptions, during the disqualification period, times the months remaining in the 3-year disqualification.
†
  Vendor appeared on FNS Watch List prior to granting the CMP.
‡
  Vendor appeared on FNS Watch List after granting the CMP.




USDA/OIG-A/27002-1-AT                                                                                                                      Page 17
Exhibit D – Agency Response
                              Exhibit D– Page 1 of 3




USDA/OIG-A/27002-1-AT                   Page 18
Exhibit D – Agency Response
                              Exhibit D– Page 2 of 3




USDA/OIG-A/27002-1-AT                   Page 19
Exhibit D – Agency Response
                              Exhibit D– Page 3 of 3




USDA/OIG-A/27002-1-AT                   Page 20
